No. 20-6689

IN THE

SUPREME COURT OF THE UNITED STATES

MATTHEW J. KWONG - PETITIONER
VS.

CHESWOLD (TL), LLC, Et Al. - RESPONDENT

CERTIFICATION OF COUNSEL

I, Matthew John Kwong, do swear or declare that the enclosed PETITION FOR
REHEARING is now being presented before the Court in good faith, and is restricted
as such under the grounds specified by Rule 44.2 of the United States Supreme Court.

By_ZoAe

Matthew John Kwong, pro se
9 Bradley Ln., Sandy Hook, CT 06482
Date: March 19, 2021.

RECEIVED
MAR 2.6 2021

OF THE CLERK
QPP Reme COURT, US.

   
         
No. 20-6689

IN THE

SUPREME COURT OF THE UNITED STATES

MATTHEW J. KWONG - PETITIONER
Vs.

CHESWOLD (TL), LLC, Et Al. - RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI TO

THE APPELLATE COURT OF THE STATE OF CONNECTICUT

RE: PETITION FOR REHEARING

DECLARATION OF COUNSEL
PURSUANT TO RULE 44.6 OF THE UNITED STATES SUPREME COURT

In accordance with Rule 29.2 of the United States Supreme Court and compliance
to title 28 section 1746(2) of the United States Code, I, Matthew John Kwong, do
hereby swear that the petitioner’s enclosed PETITION FOR REHEARING, now being
resubmitted in good faith before the Court for filing, was personally deposited by me,
with its “Forever” first-class postage prepaid, on March 19, 2021 into an officially
designated mailbox of the United States Postal Service situated on its Stevenson Post
Office satellite location at 230 Roosevelt Drive in the town of Monroe, Connecticut, Zip
Code: 06468 (see attached receipts for specific site contact information).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 9, 2021.
Byline.
Matthew John Kwong, pro se

9 Bradley Ln., Sandy Hook, CT 06482
Date: April 9, 2021.

RECEIVED

APR 21 2021

E OF THE CLE
SUPREME count U.S.

 
